Report No. D-2010-001          October 9, 2009




Review of Whistleblower Disclosure Regarding the
   DoD Defense Technical Information Center
Additional Information
The Department of Defense Office of the Deputy Inspector General for Auditing, Defense
Business Operations, prepared this report. If you have questions, contact the signer of the report.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for Auditing by
phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ASD(NII)/DOD(CIO) Assistant Secretary of Defense (Networks and Information
                   Integration)/DOD Chief Information Officer
CED               Comptroller Executive Dashboard
DDR&E             Director of Defense Research and Engineering
DTIC              Defense Technical Information Center
FMR               Financial Management Regulation
IAC               Information Analysis Center
IT                Information Technology
OMB               Office of Management and Budget
OSC               Office of Special Counsel
SNaP-IT           Select and Native Programming Information Technology System
U.S.C.            United States Code
USD(C)/CFO        Under Secretary of Defense (Comptroller)/Chief Financial Officer
USD(AT&L)         Under Secretary of Defense for Acquisition, Technology, and Logistics
                                       INSPECTOR GENERAL 

                                      DEPARTMENT OF DEFENSE 

                                       400 ARMY NAVY DRIVE 

                                  ARLINGTON , VIRGINIA 22202-4704 





William E. Reukauf                                                            OCT      9 2009
Acting Special Counsel
U.S . Office of Special Counsel
1730 M Street N.W., Suite 218
Washington, D.C. 20036-4505

Re: OSC File No. DI-08-2096

Dear Mr. Reukauf:

         We believe the enclosed report satisfies the requirement of section 1213, title 5, United
States Code (5 U.S.C. § l 213[d] [2009]). The report is in response to your February 3, 2009,
letter to the Secretary of Defense regarding a whistleblower disclosure alleging that employees at
the Defense Technical Information Center (DTIC) improperly used fe es collected for
Information Analysis Center (lAC) programs for functions and activities that were umelated to
the lAC programs. The whistleblower disclosure also alleged that DTIC employees fai led to
report the lAC monies and implemented fau lty policies to justify the mi suse of funds.
In accordance with 10 U.S.C. § 113 , the Secretary of Defense delegated authority to the DOD
Inspector General to respond to requests for investigations under 5 U.S .C. § 1213. (Secretary of
Defense memorandum, "Delegation of Authority to the Inspector General," February 9, 1998
[copy enclosed]).

The enclosed report addresses the five elements required under 5 U.S.C. § 1213(d) (2009) as
follows:

       (I) A summary of the information with respect to how the investigation was initiated.
       See the Objective and Background section on page I of the report.

       (2) A description of how we conducted the investigation. See the Conduct of the Review
       section on page 14 of the report.

       (3) A summary of any evidence we obtained from the investigation. See the Conduct of
       the Review section on page 14 of the report.

       (4) A listing of any violation or apparent violation of law, rule, or regulation:

               • 	 Allegation 1. DTIC collected fees in excess of actual costs it incurred, which
                   violated the Economy Act, 3 1 U.S.C. § 1535, and augmented its budget by not
                   retul11ing surplus reimbursable fees ; the allegation was substanti ated. See the
                   discussion on page 5 of the rep011.
               • 	 Allegation 2. DTIC fai lure to report reimbursable fees; the allegation was not
                   substantiated. See the discussion on page 10 of the report.

               • 	 Allegation 3. DTIC fa iled to report information technology expenditures
                   made with reimbursable fees; the allegation was partially substantiated.
                   See the discussion on page 12 of the repOlt.

       (5) A description of any action taken or plmmed as a result of the investigation, such as
       changes in agency rules, regulations, or practices: See the Management Action Plans
       provided by the Office of the Undersecretary of Defense for Acquisition, Logistics, and
       Teclmology, the Under Secretary of Defense (Comptroller)/ChiefFi nancial Officer, and
       the Assistant Secretary of Defense (Networks and Informationlntegration)/DOD Chief
       Information Officer. See the Management Action Plan sections for each allegation
       (pages 8, 11 , and 13).

       In addition to our initial review on these allegations, the Deputy Inspector General for
Administrative Investigations is cond ucting a separate review to determine whether actions of
DTIC senior officials constituted "gross mismanagement and an abuse of authority." We will
provide you the results of that review.

       If you have any questions, please contact Mr. Jolm R. Crane at (703) 604-8234.

                                             Sincerely,




                                             Gordon S. Heddell


Enclosures: As stated

cc: 	 Deputy Secretary of Defense




                                                                                              2
-. 
                      THE SECRETARY OF DEFENSE
                                W~TOH.   DC 20301




                                                       FEB 9 1998

       MEMORANDUM FOR INSPECTOR GENERAL , DEPARTMENT OF DEFENSE

       SUBJECT :   De l egation of Authority to the Inspector General

            In accordance with the authority contained in Title 10,
       United states Code (u.s . c.) , section 113 , I hereby delegate
       to the Inspector General , Department of Defense , ful l power
       and authority to act for the secretary of Defense to respond
       to requests for invest i gations under Title 5 , U.S . C. Section
       1213 from the special Counsel , Office of Special Counsel ,
       relating to allegations of violations of law , gross
       mismanagement and certain other ~atters.
            The authority delegated herein may not be redelegated.
Table of Contents

Introduction                                                1     


      Objectives                                            1     

      Background                                            1      

      Defense Technical Information Center Profile          2


Allegation 1. Charging Actual Costs                         5



Allegation 2. Reporting Reimbursable Fees                  10      


Allegation 3. Reporting Information Technology Purchases   12      


Conduct of the Review                                      14     

Introduction
Objectives
Our objective was to substantiate the validity of allegations that employees at the DOD
Defense Technical Information Center (DTIC) improperly used fees collected for
Information Analysis Center (IAC) programs for functions and activities that were
unrelated to the IAC programs. An additional objective was to determine whether DTIC
employees failed to report the IAC monies and implemented faulty policies to justify
their alleged misuse of funds. Our specific objectives were to determine whether DTIC:

   		 violated the Economy Act, section 1535, title 31, United States Code 

       (31 U.S.C. 1535); 


   		 augmented its budget;

   		 failed to report the reimbursable fees it collected for IAC on the Budget 

       Estimation Submission and Presidents Budget; and 


   		 failed to report Information Technology (IT) purchases made with reimbursable
       fees on the Select and Native Programming Information Technology System and
       the DOD Comptrollers Executive Dashboard.

Additionally, we were tasked to report the results of our review to the U.S. Office of
Special Counsel (OSC) in accordance with section 1213(d), title 5, United States Code
(5 U.S.C. § 1213[d] [2009]). See the Conduct of the Review section for a discussion of
the procedures we performed.

Background
On February 3, 2009, the OSC referred allegations to the Secretary of Defense stating
that DTIC violated the Economy Act, augmented its budget, did not report its
reimbursable fees to oversight entities, and failed to report its IT expenditures. OSC is
authorized by 5 U.S.C. § 1213(a) and (b) (2009) to receive disclosures of information
from Federal employees alleging violations of law, rule, or regulation, gross
mismanagement, gross waste of funds, and abuse of authority, or a substantial and
specific danger to public health or safety. When OSC finds that there is a substantial
likelihood that one of these conditions exists, it is required to advise the appropriate
agency head, and the agency head is required to conduct an investigation of the
allegations and prepare a report, pursuant to 5 U.S.C. § 1213(c) and (d) (2009).

In this case, OSC concluded that there was a substantial likelihood that the information
provided by a Federal employee disclosed allegations covered by 5 U.S.C. § 1213 (2009),
and it referred the matter to the Secretary of Defense for investigation. OSC summarized
the whistleblower allegations as follows:



                                             1

    		 DTIC did not charge actual costs for the goods and services it provided to DOD
        organizations and other customers. Therefore, DTIC violated the Economy Act.
        In addition, DTIC did not return improperly charged reimbursable fees or
        surpluses to its customers for FY 2007 and FY 2008. Therefore, DTIC
        augmented its budget.

    		 DTIC did not report the reimbursable fees it collected on the DOD Budget 

        Estimate Submission or the President’s Budget. 


    		 DTIC did not report IT expenditures made with reimbursable fees on the Select
        and Native Programming Information Technology System (SNaP-IT) and the
        DOD Comptrollers Executive Dashboard (CED).

The Secretary of Defense delegated his authority to review and sign the report to the
DOD Inspector General.

Defense Technical Information Center Profile
On June 4, 2004, DTIC was designated as a DOD Field Activity within the Under
Secretary of Defense for Acquisition, Technology, and Logistics (USD[AT&L]),
reporting to the Director of Defense Research and Engineering (DDR&E).
DTIC’s overall mission is to provide a centralized operation for the acquisition, retrieval,
and dissemination of technical information to the Defense community through IACs.
DTIC is responsible for managing the IAC Program, which consists of 10 different IACs.
See Table 1 for a listing of the IACs.

                            Table 1. Defense Technical Information Center,
                                 Information Analysis Centers
 Information
Analysis Center                          Name                           Prime Contractor
AMMTIAC                   Advanced Materials and Testing            Alion Science and
                                                                    Technology
                          Chemical, Biological, Radiological, and
CBRNIAC                   Nuclear                                   Battelle Memorial
CPIAC                     Chemical Propulsion                       Johns Hopkins University*
DACS                      Data and Analysis Center for Software     ITT
IATAC                     Information Assurance                     Booz Allen Hamilton
MSIAC                     Modeling and Simulation                   Alion Science and
                                                                    Technology
RIAC                      Reliability                               Wyle Labs
SENSIAC                   Sensor Technology                         Georgia Tech Research
                                                                    Institute*
SURVIAC                   Survivability/Vulnerability               Booz Allen Hamilton
WSTIAC                    Weapon Systems Technology                 Alion Science and
                                                                    Technology
*Academic institutions.




                                                 2

DTIC’s workforce consists of both Government and contract personnel with expertise in
technical information, IT, and program management. The IAC Program directorate is
one of eight DTIC directorates. See Table 2 for a listing of the directorates.

           Table 2. Defense Technical Information Center Directorates
           Directorate                       Name
           DTIC-A       Component Information Support
           DTIC-B       User Services and Marketing
           DTIC-D       Front Office Administration
           DTIC-E       Information Science and Technology
           DTIC-I       Information Analysis Center Program
           DTIC-O       Operations
           DTIC-R       Resource Management, Budgeting, and Finances
           DTIC-Z       Information Systems

The DTIC IACs’ reimbursable work has increased substantially during the past 4 fiscal
years. As shown in the figure, in FY 2005, for example, DTIC reimbursables totaled
approximately $398.3 million and have since increased every fiscal year. In FY 2008,
DTIC reimbursables totaled $1.09 billion. DTIC provides its IAC services using a
contracting task order called technical area task. DTIC applies a reimbursable fee to each
task. The reimbursable fee rate should be set to recover the actual costs to the IACs.
During each year, and from year to year, IACs may adjust the reimbursable fee as
necessary to recover changes in actual costs. DTIC currently charges its customers a
3.5-percent reimbursable fee on IAC technical area tasks.

                     Figure. Defense Technical Information Center 

                           Reimbursables for FYs 2005-2008


                                                        DTIC Reimbursables


                                        $1,200
                                                                                 $1,085

                                        $1,000
                                                                         $873
                   Amount in Millions




                                         $800

                                                            $600
                                         $600

                                                 $398
                                         $400


                                         $200


                                           $0
                                                 2005        2006         2007    2008
                                                                Fiscal Year
                                Reimbursables




                                                               3

During the 4 fiscal years, DTIC’s revenue from the IAC reimbursable fees for technical
area tasks, as compared with the total DTIC appropriations and reimbursable fees
collected, increased from 19.1 percent to 44.9 percent. Reimbursable fees collected
represent a substantial portion of DTIC’s total funding. See Table 3 for the amounts and
percentages of the reimbursable fees by fiscal year.

                   Table 3. Reimbursable Fees as a Percentage of


                            Total Funding (in millions) 

                Item              FY 2005    FY 2006      FY 2007         FY 2008
     Fee Collected                   $10.0       $23.4       $31.8           $43.1
     Appropriation                   $42.4       $49.3       $51.7           $53.0
     Total Funding                   $52.4       $72.7       $83.5           $96.1
     Fee as Percentage of Total     19.1%       32.2%       38.1%           44.8%




                                            4

Allegation 1. Charging Actual Costs
DTIC did not charge actual costs for the goods and services it provided to DOD
organizations and other customers. In addition, DTIC did not return improperly charged
reimbursable fees or surpluses (IAC monies) to its customers for FY 2007 and FY 2008.
Therefore, DTIC violated the Economy Act and augmented its budget.

Response
The allegation was substantiated. We determined that DTIC violated the Economy Act
and augmented its budget. DTIC improperly charged indirect costs (overhead) for the
goods and services it provided to DOD organizations and other customers in FY 2007
and FY 2008. Furthermore, DTIC collected fees in excess of its actual costs and did not
return the surpluses to its customers for FY 2007 and FY 2008. Specifically, DTIC:

      improperly established a reimbursable fee rate,
      did not return surplus reimbursable fees collected to its customers at fiscal
       year-end,
      improperly charged reimbursable fees to DOD organizations, and
      did not properly use the reimbursable fees collected.

These conditions occurred because DTIC management did not establish a systematic
process for accumulating actual indirect costs (overhead) incurred by its IACs.
In addition, DTIC did not follow DOD Instruction 4000.19, “Interservice and
Intergovernmental Support,” August 9, 1995, which states that indirect costs will not be
included in reimbursement charges. Furthermore, DTIC did not ensure that actual
indirect costs had a significant relationship to providing the goods and services.
As a result, DTIC violated the Economy Act and augmented its budget, and DTIC may
have overcharged its customers by $12.1 million in FY 2007 and $9.7 million in
FY 2008.

Reimbursable Fee Rate
DTIC did not properly establish a reimbursable fee rate. Instead, DTIC arbitrarily
established reimbursable fee rates based on a spreadsheet that had different revenue
scenarios. DTIC referred to the spreadsheet as its “spending plan.” The spreadsheet, or
spending plan, had a subheading called “Fees Used to Fund DTIC,” which listed
purchases that benefited all DTIC directorates. These were not fixed purchases, and
DTIC adjusted the plans for purchases based on the amount IACs generated from the
reimbursable fees. If the IACs generated more reimbursable revenue than expected,
DTIC management received more fees and allocated more fee monies to other DTIC
directorates. This occurred because DTIC management did not have a systematic process
for accumulating actual indirect (overhead) costs incurred by its IACs. Therefore, DTIC
was unable to calculate a reimbursable fee rate to apply against its estimated
reimbursable work. Specifically, DTIC did not accumulate actual indirect cost in a cost
pool to calculate a reimbursable fee rate at the beginning of each fiscal year that recovers
the IAC Program’s actual costs for the fiscal year. In addition, DTIC did not periodically


                                             5

review the reimbursable fee rate throughout the fiscal year and adjust the rate as
necessary. Furthermore, DTIC did not return reimbursable fee surpluses to its customers.

Section 1535, title 31, United States Code, the Economy Act, is the principal statutory
authority for one Federal agency to pay another Federal agency for goods or services.
The Economy Act states:
               Payments may be made in advance or on providing the goods or
               services and shall be for any part of the estimated or actual cost as
               determined by the agency or unit filling the order…. Proper adjustment
               of amounts paid in advance shall be made as agreed to by the heads of
               the agencies or units on the basis of the actual cost of goods or services
               provided.

DOD Regulation 7000.14-R, “DOD Financial Management Regulation,” (DOD FMR), 

volume 11A, chapter 1, “General Reimbursement Procedures and Supporting 

Documentation,” states that if an organization has a significant amount of reimbursable 

effort, such costs are accumulated in a cost pool and allocated to customers. 

Indirect costs are sometimes referred to as overhead or general and administrative costs, 

which consist of costs that cannot readily or directly be identified in the performance of 

the customer order. Examples of such indirect costs are supervision, office supplies, 

utility costs, and similar costs. Volume 11A, chapter 1, also requires indirect costs, such 

as supervision, office supplies, utility costs, and similar costs, to be accumulated in a cost 

pool. 


DOD FMR, volume 11A, chapter 3, “Economy Act Orders,” February 2008, implements 

the Economy Act for DOD. Chapter 3 states that actual costs include all direct costs 

attributable to providing the goods or services and that benefit the requesting agency. 


Charging Cost to DOD Organizations
DTIC improperly charged reimbursable fees to DOD organizations. Specifically, DTIC
improperly charged indirect costs to DOD organizations through the use of its
reimbursable fee rate. DOD Instruction 4000.19 states that indirect costs will not be
included in reimbursement charges. DOD FMR, volume 11A, chapters 1 and 3, state that
DOD organizations not funded by working capital funds normally do not charge indirect
costs to other DOD organizations. DTIC did not provide any documentation permitting it
to charge DOD organizations for indirect costs (overhead). The DOD FMR does not
provide adequate guidance on whether DOD organizations may charge indirect costs
(overhead) to other DOD organizations. Specifically, the DOD FMR is unclear on how
the term “normally” is defined. The various DOD organizations may interpret these
chapters differently.

Use of Fees
DTIC did not properly use reimbursable fees collected. We reviewed DTIC purchases
made in FY 2007 and FY 2008 for hardware, software, and services using IAC
reimbursable fees to verify their existence and determine whether the purchases had a
significant relationship to the IACs. Specifically, we selected a non-statistical sample of


                                                   6

fee purchases from DTIC’s spreadsheets, “All Other Directorates Unfunded Investment
Opportunities (UIO)” for FY 2007 and FY 2008. These spreadsheets list DTIC purchases
that benefit all of DTIC rather than the individual IACs. DTIC adjusts these purchases
based on the amount of reimbursable fees generated by the IACs. Table 4 shows the
number of items reviewed, the universe, and the dollar amount of our sample for
FY 2007 and FY 2008.

    Table 4. Sample of Purchases Made With Information Analysis Center Fees
              Fiscal     Number of       Total        Reviewed
              Year        Reviewed       Items         Amount
                           Items                     (in millions)
            2007             22            63            $9.5
            2008             18            90            $4.0
            Total            40           153            $13.5

None of the purchases we reviewed had a significant relationship with the IACs.
DTIC should not have purchased these 40 purchases with IAC fees totaling $13.5
million. For example, in FY 2007, DTIC purchased communication services, which
consisted of cell phones, telephones, and phone services; voicemail; Internet services, and
186 software licenses for use in all DTIC directorates. In FY 2008, DTIC purchased
400 antivirus subscriptions for use in all DTIC directorates, 162 computer monitors to
replace existing monitors in almost all directorates, and 2 microfiche scanners for use in
DTIC’s Operations directorate.

This occurred because DTIC management did not ensure that actual indirect costs
(overhead) had a significant relationship to providing the goods or services.
DTIC internal business rules stated that if a purchase benefits DTIC’s IT infrastructure,
then it should be 100-percent funded by reimbursable fees. General support for DTIC
and the IACS is 50-percent funded by reimbursable fees. However, DTIC internal
business rules did not provide adequate guidance for determining whether a planned
purchase had a significant relationship to providing the goods or services.

DOD FMR, volume 11A, chapter 3, implements the Economy Act for DOD.
Volume 11A, chapter 3 states that actual costs include all direct costs attributable to
providing the goods or services. Actual costs include indirect costs (overhead) to the
extent they have a significant relationship to providing the goods or services and benefit
the requesting agency.

The Defense Information Systems Agency General Counsel * agreed with this
interpretation of the Economy Act. On April 3, 1998, the General Counsel gave DTIC
management a legal opinion through the Defense Information Systems Agency
Comptroller, stating that the Economy Act requires indirect costs to the performing

*
 In 1998, DTIC was part of the Defense Information Systems Agency and received legal support from its
General Counsel office.


                                                   7

agency to have a significant relationship to providing the goods and services to the
requesting agency. The opinion also stated that the focus of the Economy Act is on the
specific unit performing the services rather than on the larger organization to which the
performing unit belongs. The opinion concluded that each IAC is a performing unit for
Economy Act purposes even though all are under DTIC. Furthermore, General Counsel
stated that DTIC could not use the fees collected to support one IAC’s costs to support
another IAC’s costs.

Economy Act, Budget Augmentation, and Reimbursable Fees
Because DTIC did not charge actual costs for the goods and services it provided to DOD
organizations and other customers, DTIC violated the Economy Act and augmented its
budget. For example, DTIC overcharged its customers by $12.1 million and $9.7 million
in FY 2007 and FY 2008, respectively. These overcharge amounts represent the amounts
of purchases we reviewed for FY 2007 and FY 2008 ($9.5 million and $4 million,
respectively) that did not have a significant relationship with the IACs, plus the surpluses
DTIC had at the end of each fiscal year. DTIC had surpluses of $2.6 million and
$5.7 million at fiscal year-end for FY 2007 and FY 2008, respectively.

In addition, the remaining purchases and amounts of $3.6 million and $13.9 million
on DTIC’s FY 2007 and FY 2008 spreadsheets, “All Other Directorates Unfunded
Investment Opportunities (UIO),” may represent additional overcharges. DTIC officials
confirmed that the spreadsheets represented purchases for all other directorates.
However, because we performed a limited review, we did not test all purchases to
determine whether they had a significant relationship to the IACs.

DTIC augmented its budget by collecting fees for more than its actual costs and by not
returning surpluses to its customers at fiscal year-end. The U.S. Government
Accountability Office, Office of the General Counsel, “Principles of Federal
Appropriation Law,” third edition, volume II, page 162, February 2006 (Red Book),
states as a general principle that an agency may not augment its appropriations from
outside sources without specific statutory authority. If an agency gets additional funding
from another source without specific statutory authority, it has more budget authority
than the funding level Congress appropriated for those purposes during that time.
When an agency operates beyond its appropriated funding level with funds derived from
another source, the agency is circumventing congressional budget controls. DTIC has
been circumventing Congress’ role and budget controls by obtaining excess funds
without congressional approval.

Management Action Plan
1. The USD(AT&L) and DDR&E will require DTIC to establish an IAC Reimbursable
Review Board. The products required of the IAC Reimbursable Review Board will be
approved by USD(AT&L) and DDR&E and coordinated as appropriate with the Under
Secretary of Defense (Comptroller)/Chief Financial Officer (USD[C]/CFO). The IAC
Reimbursable Review Board will be required to:




                                             8

      		 Establish a process for creating a fixed reimbursable rate for each fiscal year,
          and provide annually the details and justification for the reimbursable rate.

      		 Obtain written concurrence from the DOD General Counsel that the plan is
          consistent with statutory and regulatory guidance. In addition, the
          USD(AT&L) and DDR&E will request that the DOD General Counsel
          provide dedicated legal counsel to DTIC to ensure they are complying with all
          existing laws and regulations.

      		 Establish a timeline for providing documentation annually to USD(AT&L)
          and DDR&E for the comparison of collected reimbursable fees to the actual
          costs incurred.

      		 Provide the USD(AT&L) and DDR&E its plans for determining and returning
          surplus fees that align with multi-year Research, Development, Testing, and
          Evaluation requirements.

      		 Review items for allowability and annually assess the relationship between
          core DTIC activities and IAC activities.

      		 Coordinate with the USD(C)/CFO for a review of budgeting method models
          for DTIC and the IACs, including direct funding and working capital funds.
          Specifically, coordinate with the USD(C)/CFO to ensure that the most
          effective structure is in place for the current DTIC mission and it complies
          with all existing laws and regulations.

2. The USD(C)/CFO will update the DOD FMR Chapters 1 and 3 to clarify when a DOD
organization, performing under the Economy Act authority, is permitted to charge
indirect costs to other DOD organizations.




                                            9

Allegation 2. Reporting Reimbursable Fees
DTIC did not report reimbursable fees that it collected on the DOD Budget Estimate
Submission or the President’s Budget as required.

Response
The allegation was not substantiated. We determined that DTIC did report total
reimbursables on the Budget Estimate Submission and the President’s Budget.
However, we also determined that DTIC was not required to report reimbursable fees,
separately from the total reimbursables on the Budget Estimate Submission and the
President’s Budget.

Background
DTIC reimbursables were $873 million in FY 2007 and $1.1 billion in FY 2008
(as shown in the figure on page 3). DTIC reimbursable fees in FY 2007 and FY 2008
were $31.8 million and $43.1 million, respectively. Table 5 provides the amount of
reimbursable fees DTIC collected in FY 2007 and FY 2008 from DOD and other
organizations.

                 Table 5. Reimbursable Fees DTIC Collected From 

                          DOD and Other Organizations 

                    Organization         FY 2007       FY 2008
              Army                       $8,296,067    $9,881,247
              Navy                        6,890,956      7,031,105
              Air Force                   7,415,523      6,296,097
              NSA                           150,247      1,038,909
              Marine Corps                  683,114        908,504
              DISA                          633,396        722,472
              Joint Staff                   336,545        685,876
              Coast Guard                   196,277        626,882
              DTRA                          158,853        230,939
              OSD                            67,478        216,306
              Other DOD                   5,210,638    12,727,360
              Other Government and
              Industry                    1,735,633      2,689,123
              Total                     $31,774,727   $43,054,820




                                          10 

Reporting of Reimbursable Fees
Office of Management and Budget (OMB) Circular A-11, “Preparation, Submission,
and Execution of the Budget,” November 14, 2008, provides guidance for agencies in
preparing and submitting their budget. DOD FMR, volume 2A, “Budget Formulation
and Presentation,” implements the OMB guidance on formulating and submitting budget
requests to the Secretary of Defense for review, presentation, and justification of DOD’s
program and budget requests submitted to Congress. However, neither OMB
Circular A-11 nor DOD FMR, volume 2A, provide any guidance for separately reporting
reimbursable fees. Specifically, they do not require that reimbursable fees be reported for
DTIC or any other DOD organization on the DOD Budget Estimate Submission and
President’s Budget. We confirmed our understanding with USD(C)/CFO staff. DTIC
reported its reimbursables on the President’s Budget. However, the President’s Budget is
at the budget account level only, which is a higher-level presentation of summary data.
Although DTIC’s reimbursable fees are included within the reimbursables total in the
President’s Budget, they are not presented separately. Therefore, DTIC’s reimbursables
and reimbursable fees are not readily visible as separate data.

As a result, the USD(C)/CFO was unaware that DTIC had collected approximately
$31.8 million and $43.1 million in reimbursable fees for FY 2007 and FY 2008,
respectively. In addition, the increase in reimbursable fees from $10 million in FY 2005
to $43.1 million in FY 2008 went unnoticed. Additionally, the increase of DTIC fees
from 19.1 percent of DTIC total funding in FY 2005 to 44.9 percent in FY 2008 also
went unnoticed. Furthermore, the USD(C)/CFO lacked the necessary data to perform
management oversight and make informed budget decisions. If USD(C)/CFO had
required the reporting of reimbursable fees, it would have detected these unusual
conditions and alerted DOD management. USD(C)/CFO officials stated that their office
relies on the USD(AT&L) to monitor DTIC reimbursable fees and to ensure that DTIC
acts in accordance with the Economy Act.

Management Action Plan
1. The USD(C)/CFO will update the DOD FMR to require organizations to report
reimbursable fees within reimbursable authority.

2. The USD(C)/CFO will review DTIC reports detailing the calculation of the
reimbursable rate at the beginning of each fiscal year and the periodic comparisons of the
collected reimbursable fees to the actual costs to determine whether any adjustments to
the reimbursable rate are necessary.




                                            11 

Allegation 3. Reporting Information
Technology Purchases
DTIC did not report information technology (IT) expenditures made with reimbursable
fees in the Select and Native Programming Information Technology System (SNaP-IT)
or to the DOD Comptroller’s Executive Dashboard (CED).

Response
The allegation was partially substantiated. DTIC did not report IT expenditures made
with reimbursable fees in the Select and Native Programming Information Technology
System (SNaP-IT). However, we also determined that SNaP-IT does not require or allow
users to report IT expenditures made with non-appropriated funds. In addition, we
determined that DTIC was not required to report IT expenditures made with reimbursable
fees to the DOD CED.

Reporting Information Technology Expenditures
DTIC did not report IT expenditures made with reimbursable fees in SNaP-IT. 

For example, in FY 2007, DTIC did not report $353,000 in costs to acquire local area 

network equipment. In FY 2008, DTIC did not report $100,000 in server acquisition 

costs in SNaP-IT. 


OMB Circular A-11 requires agencies to report all IT investments. These include the 

total investment costs of the entire risk-adjusted life cycle of each system and include all 

budgetary resources. This allows OMB and an agency to review and evaluate the 

agency’s IT spending and to compare IT spending across the Federal Government. 

DOD FMR, volume 2B, chapter 18, “Information Technology,” implements OMB 

Circular A-11. 


DOD uses SNaP-IT to implement OMB’s reporting requirements. Specifically, DOD 

FMR, volume 2B, chapter 18, states that Assistant Secretary of Defense (Networks and 

Information Integration)/DOD Chief Information Officer [ASD(NII)/DOD(CIO)] and the 

Deputy Assistant Secretary of Defense (Resources) use SNaP-IT to collect IT 

expenditure data and generate reports mandated by OMB and Congress. The Deputy 

Assistant Secretary (Resources) is responsible for SNaP-IT. The system is a database 

application used to plan, coordinate, edit, publish, and disseminate IT budget justification 

books required by OMB and Congress. SNaP-IT generates all forms, summaries, and 

pages used to complete the publishing of the IT Congressional Justification materials and 

OMB submissions. 


However, SNaP-IT does not allow users, such as DTIC, to report IT spending funded by 

reimbursable fees. Therefore, some DOD IT expenditures are not counted and reported 

to OMB. As a result, DOD and OMB cannot review and evaluate DTIC’s IT spending 

and compare it with IT spending across the Federal Government or provide a full and 

accurate accounting of agencies’ IT investments. 



                                             12 

The DOD CED is an information system interface, which employs metrics as a tracking
tool that the USD(C)/CFO uses to monitor DOD's financial performance. USD(C)/CFO
determines high priority goals and uses the DOD CED to track those goals. Past audit
findings heavily influence the metrics that the DOD CED measures. Reimbursable fees
and IT expenditures made with those fees are not included in these goals. As a result, we
determined that DTIC was not required to report its reimbursable fees or IT purchases
made with those fees to the DOD CED.

Management Action Plan
The ASD(NII)DOD(CIO) will conduct a study to determine the extent that Defense
agencies purchase IT using reimbursable fees and do not report the spending to OMB.
If other Defense agencies are purchasing IT with reimbursable fees and the amounts are
material, ASD NII/DOD CIO will develop a process to report these IT purchases to
OMB. If the amounts are immaterial, they will request a waiver from OMB.




                                           13 

Conduct of the Review
We conducted this review from February 2009 through September 2009 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform our work to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on the objectives. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions
based on the objectives.

We limited our review to substantiating the validity of the whistleblower allegations at
DTIC during FY 2007 and FY 2008. We referred other matters to the Deputy Inspector
General for Administrative Investigations. To substantiate the validity of the
whistleblower allegations at DTIC, we performed procedures such as the following.

   		 We interviewed the DTIC whistleblower to confirm our understanding of the
       allegations and obtain detailed knowledge of DTIC operations.

   		 We reviewed the February 3, 2009, OSC letter to the Secretary of Defense and its
       attachments.

   		 We reviewed the Economy Act, OMB guidance, and DOD FMR.

   		 We interviewed DTIC employees to obtain an understanding of DTIC policy and
       procedures for charging indirect costs (overhead) for the goods and services it
       provided to DOD organizations and other customers.

   		 We reviewed DTIC procedures for calculating the reimbursable fee rate and the
       list of reimbursable revenue and fees we received from DTIC.

   		 We non-statistically sampled and analyzed IAC fee expenditures for FY 2007 and
       FY 2008 to determine whether the DTIC purchases had a significant relationship
       to the IACs. Our analysis included interviewing DTIC management and staff to
       verify the purpose of the hardware, software, or service contract they purchased to
       determine whether it had a significant relationship to the IACs. We also verified
       the existence of the sampled purchases.

   		 We met with USD(C)/CFO staff to determine whether DTIC reported the
       reimbursable fees on the DOD Budget Estimate Submission and President’s
       Budget.

   		 We met with the ASD(NII)/DOD(CIO) staff to determine whether DTIC reported
       IT expenditures on SNaP-IT.




                                           14 

We issued to DOD management a draft report for discussion and a draft report (“Review
of Defense Technical Information Center Internal Controls,” September 4, 2009) for
management comments. The draft reports presented the results of our review of the
allegations. Furthermore, we met and discussed the results of our review and our draft
report with DOD management to obtain their management action plan. Specifically, we
met and spoke with representatives from the USD(AT&L), DDR&E, USD(C)/CFO, and
ASD(NII)/DOD(CIO). This report (“Review of Defense Technical Information Center
Internal Controls,” October 9, 2009) provides the results of our review and of our
discussions with the DOD representatives and their Management Action Plans.




                                          15 

